U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 31, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Jim C. Hodge, et al. v. United States, No. 19-1008
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 10,
2020, and placed on the docket on February 12, 2020. The government's response is now due,
after one extension, on April 13, 2020. We respectfully request, under Rule 30.4 of the Rules of
this Court, a further extension of time to and including May 13, 2020, within which to file a
response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19- 1008
HODGE, JIM C., El AL.
USA

DAVID ALAN WARRINGTON
KUTAK ROCK LLP
1625 EYE STREET NW
SUITE 800
WASHINGTON, DC 20006
202-828-2437
DAVID .WARR1NGTON@KUTAKROCK. COM

